                              AR-10-003


FEDERAL TRADE COMMISSION
OFFICE OF INSPECTOR GENERAL




       AUDIT OF THE
 FEDERAL TRADE COMMISSION
     TRAVEL PROGRAM

    FINAL AUDIT REPORT

       August 19, 2010
                                 FEDERAL TRADE COMMISSION
                                   WASHINGTON, D.C. 20580



    OFACE OF
INSPECTOR GENERAl




                                            August 19, 2010
   MEMORANDUM

   To:              James D. Baker
                    Acting Chief Financial Officer

   From:            John M. Seeba      .t:i?L_ ~~ L
                    Inspector General~'"    ~

   SUBJECT:         Final Audit Report AR 10-003 - Audit of the Federal Trade Commission Travel
                    Program

   This report presents the results of our audit of the Federal Trade Commission's (FTC) Travel
   Program. Management agreed with our recommendations and has initiated corrective actions. A
   copy ofmanagemenfs written response to the draft report is incJuded as Exhibit B, with excerpts
   and the Office of Inspector General's (OIG) position incorporated into the relevant sections of
   the report.

   Your response .contained sufficient justific-ation to resolve all recommendations. These
   recommendations will be considered closed when supporting documentation has been provided
   through the audit liaison.

   We appreciate the court~sies and cooperation extended to us hy members of your staff during the
   audit. Should you have any questions, please have contact me or Mary Harmison at 202-326-
   2622.

   cc:      Charles Schneider, Executive Director
            Chris White, Designated Agency Ethics Officer
            Karen Leydon, Director, Human Resources Management Office
            Jeffrey Nalain, Dir~tor, Records and Filings Office
            Diane Reinertson, Assistant CFO -for Policy, EvaJuation and Control
Table of Contents

Executive Summary………………………………………………………………………………i

Abbreviations Used in This Report…………………………………………………………….iv

Background Scope Objectives and Methodology……………………………………………...1

Findings and Recommendations………………………………………………………………..3

 Internal Controls Generally Effective, but Opportunities for Improvements Exist

     Reconciliation of the Central Billing Account……………………………………………3
                            Recommendation 1………………………………………………..4

     Tracking Reimbursements of Non-Federal Sponsored Travel……………………………5
                        Recommendation 2.1……………………………………………...6
                        Recommendation 2.2……………………………………………...6

     Timely Cancellation of Travel Cards for Separated Employees………………………….7
                          Recommendation 3………………………………………………..7

     FTC Travel Card Training – Compliance with OMB Requirements……………………..8
                         Recommendation 4.1……………………………………………...9
                         Recommendation 4.2……………………………………………...9
                         Recommendation 4.3……………………………………………...9

Exhibit A – Summary of FTC Travel Card Activity…………………………………………10

Exhibit B – Agency Response………………………………………………………………….11




FTC/OIG-AR 10-003
Executive Summary
Results in Brief           The FTC is the U.S. government’s premier agency for “protecting and
                           strengthening free and open markets and promoting informed consumer
                           choice, both in the United States and around the world.”1 To help fulfill its
                           mission, the FTC requires many of its employees to travel throughout the
                           country and the world, to vigorously and effectively pursue law
                           enforcement actions, advance consumers’ interest by sharing its expertise
                           with federal and state legislatures, with U.S. and international government
                           agencies2, and to perform other functions in furthering FTC’s mission.

                           As a Title 5 Executive Agency, the FTC is required to follow the
                           requirements of the U.S. General Service Administration’s (GSA) Federal
                           Travel Regulations, but can augment these by implementing its own
                           policies and procedures.

                           The objective of our audit was to determine if the FTC travel program
                           complies with the Federal Travel Regulations (FTR) and with its own
                           travel policies and procedures. The OIG conducted this audit as part of its
                           annual audit plan.

                           The FTC charged approximately $2 million in 15,000 transactions on
                           federal travel cards in FY 2009 and $1.9 million in 12,000 transactions in
                           FY 2008.

                           We found that overall, the FTC had followed the policies and procedures
                           promulgated in the FTR for travel. We found that the Financial
                           Management Office (FMO) had a system of internal controls in place to
                           minimize the possibility of unauthorized use of the travel card, correctly
                           reimbursing travelers in accordance with the regulations, and complying
                           with federal regulations limiting premium travel. We did find some
                           improvements are needed to enhance the controls over the FTC travel
                           program:

                           Finding 1: The FMO does not have a formal review process in place to
                           review the CBA for any potential erroneous activity and unauthorized
                           charges

                                    The FMO relies on an automated payment process to clear charges
                                    to the CBA. For the remaining uncleared charges, many are still
                                    open due to timing differences and will be cleared in the following

1
    Federal Trade Commission Performance and Accountability Report Fiscal Year 2009 Mission and Organization.
2
    Id. Our Organization.
FTC/OIG-AR 10-003

                                                        i
                           months. However, without a review of the CBA for any
                           unauthorized charges, FTC may be unaware that there are
                           erroneous outstanding charges billed to the CBA. Unpaid charges
                           in the CBA could negatively impact the agency’s rebate.

                    Finding 2: The FTC does not use its tracking system to consistently
                    follow-up on receipt of non-Federal source travel reimbursements to be
                    sure that all sponsors are reimbursing FTC.

                           The Federal Travel Regulations permit an employee to travel
                           premium class and to exceed maximum per diem and lodging
                           amounts, only if the amounts are paid in full by the non-Federal
                           sponsor. Before FTC staff is allowed to travel for a non-Federal
                           sponsor they must receive a written reimbursement offer from the
                           non-Federal sponsor and approval from the FTC Designated
                           Agency Ethics Official (DAEO). Without a tracking mechanism
                           for all trips, the FTC may be improperly paying for premium travel
                           and/or improperly subsidizing private organizations with taxpayer
                           funds. For the six month reporting period ending September 30,
                           2009, the FTC Ethics office reported approval of 44 trips and
                           $112,000 in non-Federal sponsored travel to the Office of
                           Government Ethics.

                    Finding 3: We found five open travel card accounts to employees who
                    had separated from the FTC in the years 2005, 2007, 2008, 2009; and for
                    one individual who had retired in 1999.

                           When employees leave the agency, their travel cards should be
                           cancelled at the time of their departure. FMO had been using the
                           Check-In/Check-Out/Moves (CICOM) reports to identify
                           separated employees. The OIG used reports from the Human
                           Resources Management Office (HRMO) to identify separated
                           employees. Failure to cancel travel cards assigned to former
                           employees may subject the agency to potential criticism should
                           these cards be lost, stolen or misused.

                    Finding 4: We found that the FTC is not meeting the general training
                    requirements of Office of Management and Budget (OMB) Circular A-
                    123, Appendix B, “Improving the Management of Government Charge
                    Cards”.

                      The FTC does not consistently maintain documentation of training
                      prior to issuance of travel cards; does not have a program for refresher
                      training; and does not maintain the training certificates in accordance
                      with National Archives and Records Administration (NARA) General
                      Records Schedule 1. OMB A-123, Appendix B, Chapter 3.4 lists the

FTC/OIG-AR 10-003
                                             ii
                      general training requirements for all charge card programs. By not
                      maintaining the proper training and training documentation, the FTC is
                      not in compliance with OMB requirements.

Recommendations
In Brief        The OIG recommends that the FMO:

                    Recommendation 1: Implement a procedure to identify and review the
                    CBA for potentially erroneous outstanding charges;

                    Recommendation 2: Document all reimbursable expenditures for FTC
                    staff approved for non-Federal source travel, and coordinate with the
                    Designated Agency Ethics Official (DAEO) and the travelers’
                    Administrative Officers to ensure follow-up with all sponsors who have
                    not reimbursed the agency in a timely manner.

                    Recommendation 3: At least annually, compare the Citibank active
                    cardholders list to FTC HRMO’s active employee list to ensure that cards
                    are not issued to separated employees.

                    Recommendation 4: Coordinate with the Human Resources Management
                    Office, and the Records and Filings Office to ensure that FTC’s training
                    program is in compliance with OMB A-123, Appendix B; 3.4 general
                    training requirements.

Agency Comments and
Our Evaluation

                    We provided a draft of this report to the FMO for its review and comment.
                    We received written comments from the Acting Chief Financial Officer,
                    which are reprinted in Exhibit B. Management concurred with all of the
                    recommendations and has taken specific steps to address each one.
                    Excerpts from management’s response and the OIG’s position are
                    included in each relevant section. Management’s actions have resolved
                    these recommendations. The recommendations will be closed when
                    supporting documentation has been provided through the audit liaison.




FTC/OIG-AR 10-003
                                            iii
Abbreviations Used in This Report
CBA                 Centrally Billed Account (Travel Card)
CICOM               Check-In/Check-Out/Moves
DAEO                Designated Agency Ethics Official
FMO                 Financial Management Office
FTC                 Federal Trade Commission
FTR                 Federal Travel Regulations
FY                  Fiscal Year
GSA                 General Services Administration
HRMO                Human Resources Management Office
IBA                 Individually Billed Account
IG                  Inspector General
NARA                National Archives and Record Administration
OIG                 Office of Inspector General
OMB                 Office of Management and Budget
P.L.                Public Law
TTRA                Travel and Transportation Reform Act of 1998




FTC/OIG-AR 10-003
                                           iv
Background, Scope, Objectives, Methodology
Background               The use of federal travel charge cards was mandated by the Travel and
                         Transportation Reform Act of 1998 (TTRA) (P.L. 105-264) in an effort to
                         reduce travel costs and streamline the process of administering agency
                         travel programs.3 All federal employees must now use federal travel cards
                         for official business travel, if they travel 6 or more times per year. Since
                         the enactment of TTRA, the number of travel card transactions at the FTC
                         increased 94% (from 7,594 to 14,722) and dollar volume increased 67%
                         from $1.2 million in FY 2000 to approximately $2 million in FY 2009.

                         Reports by the General Accountability Office and agency Inspectors
                         General have prompted congressional hearing and press reports with their
                         disclosure of waste, fraud, and abuse. Audits have found that employees
                         have used their travel cards for personal use and have traveled premium
                         class without proper authorization.4 Audits have also found that agencies
                         have failed to ensure that they claim reimbursement for unused airline
                         tickets.5 These reports have raised serious concerns regarding the internal
                         control systems that monitor the use of the more than 2.6 million
                         Government travel cards in circulation.

Scope                    We reviewed the travel card program, and associated transactions, as
                         operated by the Federal Trade Commission for years 2008 and 2009.

Objectives               This report examines the travel program at the FTC to determine if the
                         FTC is properly administering its travel program in accordance with
                         applicable laws and regulations.

Methodology              To address our objective, we obtained an understanding of the FTC’s
                         travel process including travel authorizations, payments, reimbursements,
                         and overall travel program management and oversight.

                         In order to identify requirements we reviewed pertinent federal laws and
                         regulations including

                                 The Travel and Transportation Reform Act of 1998 (Public Law
                                  105-264)



3
  Waste, Fraud, and Abuse in Agency Travel Card Programs, Congressional Research Service, July 20, 2009.
4
  Id.
5
  DOD TRAVEL CARDS Control Weaknesses Led to Millions in Fraud, Waste, and Improper Payments, U.S.
General Accounting Office, GAO-04-825T.
FTC/OIG-AR 10-003
                                                   Page 1
                          The Office of Management and Budget (OMB) Circular A-123,
                           Appendix B (February 2006) Improving the Management of
                           Government Charge Card Programs

                          The Office of Management and Budget (OMB) Circular A-123,
                           Appendix B (Revised January 2009) Improving the Management of
                           Government Charge Card Programs

                          Federal Travel Regulations 300-304

                          Federal Trade Commission Administrative Manual Chapter 2:

                           o Section 400 Temporary Duty Travel Policies and Procedures

                           o Section 410 Local Travel Policy

                           o Section 430 Restrictions on the Reimbursement of Travel-
                                         Related expenses by Non-Government Sources

                    Reliability of computer based data: we relied on the data obtained from the
                    FedTraveler and Citibank report files. We determined that the data were
                    sufficiently reliable for the purposes of this report.

                    We conducted this performance audit from September 2008 to March
                    2010 in accordance with generally accepted government auditing
                    standards. Those standards require that we plan and perform the audit to
                    obtain sufficient, appropriate evidence to provide a reasonable basis for
                    our findings and conclusions based on our audit objectives. We believe
                    that the evidence obtained provides a reasonable basis for our findings and
                    conclusions based on our audit objectives.




FTC/OIG-AR 10-003
                                           Page 2
Findings and Recommendations - FTC Travel Card
Internal Controls Generally Effective, but Opportunities for
Improvements Exist

                We found that overall, the FTC had followed the policies and procedures
                promulgated in the FTR for travel. We found that the Financial Management
                Office (FMO) had a system of internal controls in place to minimize the
                possibility of unauthorized use of the travel card, correctly reimbursing travelers
                in accordance with the regulations, and complying with federal regulations
                limiting premium travel. We did find some improvements are needed to enhance
                the controls over the FTC travel program; our findings and recommendations are
                listed below.

                The Office of Management and Budget (OMB) issued OMB Circular A-123
                Appendix B, Improving the Management of Government Charge Card Programs,
                as guidance to maximize benefits when using government charge cards to pay for
                goods and services in support of official Federal missions. Agencies have an
                ongoing requirement to evaluate the effectiveness of the actions taken to comply
                with the requirements of this guidance.

                For example, pursuant to OMB Circular A-123 Appendix B agencies must
                implement risk management controls, policies, and practices as a critical tool for
                ensuring the efficiency and integrity of charge card programs. One specific
                required control for addressing charge card misuse is requiring charge card
                statement reconciliation or transaction reconciliation in a timely manner.6




Finding 1       Reconciliation of the Central Billing Account

                The FMO relies on an automated payment process to clear charges to the CBA
                and does not review the CBA for any potential erroneous activity.

                The CBA is a separate Citibank charge account used by the FTC to accumulate
                purchased transportation services for FTC travelers. For fiscal years 2008 and
                2009, FTC incurred over $2.4 million in charges to its centrally billed account.
                Charges to the CBA include:

                      •   FTC staff airline and train tickets
                      •   Invitational travelers airline and hotel reservations

6
 OMB Circular A-123 Appendix B (Revised February 2006) sections 4.2 and 4.6; and OMB Circular A-123
Appendix B (Revised January 2009) sections 4.2 and 4.8
FTC/OIG-AR 10-003
                                                 Page 3
                 •   Travel agent booking fees

            FedTraveler is the web based travel system that allows employees to create travel
            orders and expense reports that are approved and stored in the system
            electronically. Air, rail, rental car and hotel reservations can be made using the
            FedTraveler system.

            There are two methods for obtaining a ticket, via FedTraveler using electronic
            vouchers, and also via paper (manually prepared) travel vouchers. Both methods
            require an authorization process before FTC’s travel agent, National Travel
            Service, Inc. (National Travel) issues the ticket. Ticket charges and agent fees are
            charged by National Travel to the FTC Centrally Billed Account.

            Payments to the CBA for FTC staff airline/train tickets occur when travel is
            completed and the employees’ approved and audited travel reimbursement request
            is certified and processed by the National Business Center (NBC) Travel Unit.
            Payments to the CBA for FTC invitational travelers occur upon receipt by the
            NBC Travel Unit of a properly approved payment request from Financial
            Operations (FO). FO matches the individual charges on the CBA bill to submitted
            and approved travel orders before submission to NBC. Because there is an
            automated process for charging and reimbursing the CBA, FMO does not review
            the CBA for any potential erroneous charges that may occur outside of the
            automated procedures already in place.

            Without review of the CBA for any unauthorized charges, FTC may be unaware
            that there are erroneous outstanding charges billed to the CBA.

Recommendation 1

            The OIG recommends that the FMO implement a procedure to review the CBA
            for unauthorized charges.

            Agency Response

            Management concurs with the recommendation and has taken several steps to ensure
            that all transactions posted to the CBA accounts are valid and authorized.

            • The Travel Management Service (TMS), is performing a monthly reconciliation of
            airline tickets billed and refunded to the CBA accounts and providing FTC with
            exception reports.

            • The TMS systematically tracks refunds for cancelled tickets. In addition, their
            quality control system automatically sweeps the GDS systems daily for unused
            tickets, cancels them and processes refunds.



FTC/OIG-AR 10-003
                                            Page 4
                 • All charges for invitational travelers are now managed on a separate CBA account.
                 These items are directly reconciled to travel authorizations before payment to
                 Citibank.

                 • The Travel Manager reviews the monthly invoices for erroneous charges (separated
                 employees, unusual merchants, etc.).

                 OIG Position

                 The OIG concurs with the Agency Response. This recommendation will be closed
                 when supporting documentation has been provided through the audit liaison.

Finding 2        Tracking Reimbursements of Non-Federal Sponsored Travel

                 The Financial Management Office does not have a process for tracking all
                 reimbursements from non-Federal sources7 for travel and travel-related expenses
                 incurred by FTC personnel on official duty. The reimbursements apply to
                 situations in which private sources invite FTC employees to attend their functions
                 and then reimburse the agency for expenses incurred by FTC employees.

                 Before FTC staff is allowed to travel for a non-Federal source sponsor they must
                 receive approval from the FTC Designated Agency Ethics Official (DAEO). The
                 approval process includes the completion of a Reimbursement Approval
                 Memorandum to the DAEO Official and a written reimbursement offer from the
                 non-Federal source.

                 On a semi-annual basis the DAEO prepares a non-Federal source travel report in
                 compliance with 31 USC § 1353.8 The report details all payments over $250
                 accepted by the Commission for a six month period from non-Federal sources for
                 travel, subsistence and related expenses. For the six month reporting period
                 ending September 30, 2009, the DAEO reported approval of 44 trips and
                 $112,000 in non-Federal sponsored travel to the Office of Government Ethics.

                 The Federal Travel Regulations (FTR) permit employees to exceed the maximum
                 per diem and lodging amounts if the amounts are paid by the sponsoring non-
                 Federal source. The FTR also permit the employee to travel in business-class,
                 which is ordinarily prohibited to federal employees with some exceptions.




7
  A non-Federal source is defined in FTR 304-2.1 as “any person or entity other than the Government of the United
States. The term includes any individual, private or commercial entity, nonprofit organization or association,
international or multinational organization (irrespective of whether an agency holds membership in the organization
or association), or foreign, State or local government (including the government of the District of Columbia).”
8
 The requirement to report non-Federal source travel is found in section 304-1.9(a) (1) of the GSA's fourth Interim
Rule 41 CFR part 304.1 and 31 USC Section 1353 requires submission of the report semiannually
FTC/OIG-AR 10-003
                                                      Page 5
            Business-class travel is permitted as long as the-

                    (a) non-Federal source makes full payment for such transportation services
                        in advance of travel; and

                    (b) transportation accommodations furnished are comparable in value to
                        those offered to, or purchased by, other similarly situated meeting
                        attendees.

            We did not specifically review the reimbursements agreements from the non-
            Federal sponsors in our review, however without a control in place: the FTC may
            be:
                   1) failing to receive all agreed-upon reimbursements from non-Federal
                   source sponsors

                    2) improperly reimbursing travelers for amounts that are in excess of
                    Federal per diem rates

                    3) improperly paying for premium class travel, thus violating federal rules
                    regarding premium class travel

                    4) reporting reimbursements incorrectly to the US Office of Government
                    Ethics
Recommendation 2
            The OIG recommends that the FMO:

            2.1     document reimbursable expenditures for all FTC staff approved for non-
                    Federal source travel.

            2.2     coordinate with the DAEO and travelers’ Administrative Officers to ensue
                    follow-up with all sponsors who have not reimbursed the agency in a
                    timely manner.

            Agency Response

            Management concurs with the recommendation. A tracking spreadsheet and
            procedures have been developed to ensure that all approved non-Federal sponsored
            travel is timely and properly reported and reimbursed. Travel authorizations will be
            tracked to ensure that subsequent expense reports properly reflect items to be
            received "in kind" and/or receipt of reimbursements, as appropriate. A report of
            unreimbursed travel will be distributed to the travelers, DAEO and agency
            management on a quarterly basis starting in early FY 2011 reporting for the fourth
            quarter of FY 2010.



FTC/OIG-AR 10-003
                                            Page 6
            OIG Position

            The OIG concurs with the Agency Response. This recommendation will be closed
            when supporting documentation has been provided through the audit liaison.

Finding 3   Timely Cancellation of Travel Cards for Separated Employees

            When we compared the Citibank list of account holders to current FTC employees
            per HRMO records, we found five open cards for employees who had separated
            from the agency in 2005, 2007 and 2008, 2009; and one individual who had
            retired in July 1999. These open accounts should have been detected and closed
            by the Travel Office.

            Cards left open, especially for many years, could lead to vulnerabilities because
            Citibank will continue to issue new cards to active cardholder names. If a person
            is deceased or has left the agency and moved, the card may be picked up and used
            by another individual. Note: During our audit fieldwork the FMO took immediate
            action to cancel all cards when the OIG brought the specific names to their
            attention.

            The FMO was using the Employee Check-In, Check-Out, and Moves (CICOM)
            report to check for separated employees. Using the CICOM report was part of the
            FMO’s response to a recommendation from the OIG in its 2005 report “Review of
            FTC Credit and Travel Card Active Account Lists - (AR-05-065). The April 2006
            response stated that the Travel Office had initiated the practice of using the
            CICOM report and also requesting a separation list from the Human Resource
            Management Office (HRMO) to check for former employees. Based on the OIG’s
            review, the FMO was using the CICOM report alone, which is not reliable for
            identifying all separated employees with open cards.

Recommendation 3

            The OIG recommends that the FMO at least annually, compare the Citibank open
            cardholders list to FTC HRMO’s active employee list and cancel any cards in the
            names of former employees

            Agency Response

            Management concurs with the recommendation. The Travel Office began receiving a
            monthly report of employee terminations from the Human Resources Management
            Office (HRMO) in July, 2009. This report is used in addition to the normal check out
            process to ensure that FedTraveler profiles are disabled and Citibank travel cards are
            deactivated, as appropriate. The Travel Office will perform an annual comparison of
            active cardholders to the HRMO listing of current FTC employees.



FTC/OIG-AR 10-003
                                            Page 7
            OIG Position

            The OIG concurs with the Agency Response. This recommendation will be closed
            when supporting documentation has been provided through the audit liaison.

Finding 4   FTC Travel Card Training – Compliance with OMB Requirements

            FTC has not established a system of training in compliance with the requirements
            of OMB A-123 Appendix B.

            The FTC does not:

                   consistently document training received by travelers prior to issuance of
                    the travel card;
                   require card holder re-training every three years;
                   maintain training certificates in accordance with National Archives and
                    Records Administration (NARA) General Record Schedule 1. Item 10a
                    (OMB A-123 Appendix B, 3.4)

            OMB A-123 Appendix B Chapter 3 requires Federal Travel Card training before a
            travel card can be issued, refresher training every three years and the retention of
            a training certificates.

            FTC FMO requires new travel card holders to complete an on-line tutorial prior to
            being issued a travel card. When we reviewed ten cardholder files for training
            certificates, four of the ten files we reviewed did not have training certificates.

            OMB A-123 Appendix B Chapter 3 requires training on the use of federal charge
            cards as follows:

                    “3.4 What are the general training requirements for all charge card
                    programs?”

                         “All program participants must be trained prior to appointment.
                          All program participants must take refresher training a minimum
                           of every three years.
                          All program participants must certify that they have received the
                           training, understand the regulations and procedures, and know the
                           consequences of inappropriate actions. Agencies will determine the
                           method of certification; and
                          Copies of all training certificates must be maintained pursuant to
                           U.S. National Archives and Records Administration (NARA)
                           requirements, General Records Schedule 1. Item 10a.”



FTC/OIG-AR 10-003
                                           Page 8
Recommendation 4

            The OIG recommends that the FMO coordinate with the Office of the Executive
            Director, Human Resources Management Office and the Records and Filing
            Office to:

             4.1    establish the feasibility of using the FTC e-Train system to track and
                    document the initial charge card training completed prior to issuing a card;

             4.2    establish a system to track and document the refresher training that is
                    required, at a minimum of every three years; and

             4.3    maintain copies of all training certificates pursuant to OMB A-123
                    Appendix B. Copies of all training certificates must be maintained
                    pursuant to NARA requirements, General Records Schedule 1, Item 10a.”

            Agency Response

            Management concurs with the recommendation. FMO will work with HRMO and the
            Records and Findings Office to coordinate the collections and required retention of
            Travel Charge Card training documentation that is in compliance with National
            Archives and Records Administration General Record Schedule. FMO will establish
            a system for ensuring that cardholders receive refresher training at least every three
            years. FMO has contacted the FTC Training Officer to establish whether FTC e-Train
            system can be used to document training. Additionally, FMO has strengthened
            procedures to ensure that training documentation is filed appropriately.

            OIG Position

            The OIG concurs with the Agency Response. This recommendation will be closed
            when supporting documentation has been provided through the audit liaison.




FTC/OIG-AR 10-003
                                           Page 9
Exhibit A – Summary of FTC Travel Card Activity
                                                                          Exhibit A – Page 1 of 1




 Fiscal Year          Account              Spend          Transactions       Cardholders

                 Individually Billed
     2008                                 $785,045           5,091                 776
                      Accounts
                   Centrally Billed
     2008                               $1,067,108           6,635                    1
                      Account

Total FY 2008                           $1,852,723           11,726                777




 Fiscal Year          Account              Spend          Transactions       Cardholders
                 Individually Billed
     2009                                 $688,155           5,060                 748
                      Accounts
                   Centrally Billed
     2009                                $1,311,555          9,662                    2
                      Account

Total FY 2009                           $1,999,710           14,722                750




These statistics on GSA SmartPay® charge card data are provided by the charge card banks to
GSA for informational purposes and are available on the GSA website.


FTC/OIG-AR 10-003
                                         Page 10
Exhibit B – Agency Response
                                                                                                   Exhibit B – Page 1 of 2




                                               UNIT!;D STATES OF AMERICA
                                             FEDERAL TRADE COMMISSION
                                                 WASH INGTON , 0 C. 20580



       Financial Management Office


                                                                                       August 6,2010

             MEMORANDUM

             To:         John Seeba
                         Inspector General

             From:       JamesD.     B~ \~~
                         Acting Chiet-~l Officer

             Subject: FMO Response to Draft Audit Rep0l1 ofthe FTC Travel Program


             Management has reviewed the Draft Audit Report AR 10-003 - Audit of the Federal
             Trade Commission Travel Program. In general, we cpncur with recommendations
             contained in the draft report. The following -is Management's response to the
             recommendations resulting from the audit.

             Following are the responses to the four recommendations:

            Reconciliation of the Central Billing Account - Management conClrrs with the
            recommendation. Several steps have been taken to ensure that all transactions posted to
            the CBA accounts are valid and authorized.
                • Our Travel Management S'ervice (TMS), National Travel, is performing a
                  monthly reconciliation of airline tickets billed an,d refunded to the CBA accounts
                  and providing FTC with ex,ception reports.
                • The TMC systematically tracks refunds for cancelled tickets. In addition, their
                  quality control system automatically sweeps the GDS systems daily for unused
                  tickets, cancels them and processes refunds.
                • All charges for invitational travelers are now managed on a separate CBA
                  account. These items are directly reconciled to travel authorizations before
                  payment to Citibank.              '
                • The Travel Manager reviews the monthly invoices for erroneous charges
                  (separated employees" unus,ual merchants, etc.).

            Tracking Reimbursements of non-Federal Sponsored Travel- Management concurs with
            the recommendation. A tracking sp~eadsheet and procedures have been developed to
            enSlrre that all approved non-Federal sponsored travel is timely and properly reported and
            reimbursed. Travel authoTIz::ttions will be tracked to ensure that subsequent expense
            reports properly reflect items to be received "in kind" and/oJ' receipt of reimbursements,
            as appropriate. A report oful11'eimbmsed travel will be distributed to the travelers,




FTC/OIG-AR 10-003
                                                        Page 11
Exhibit B – Agency Response
                                                                                           Exhibit B – Page 2 of 2




           DAEO and agency management on a quarterly basis starting in early FY 2011 reporting
           for the fourth quarter ofFY 2010.

           Timely Cancellation of Travel Cards for Separated Employees - Management concurs
           with the recommendation. The Travel Office began receiving a monthly report of
           employee terminations from the Human Resources Managem.ent Office (HRMO) in July,
           2009. This report is used in addition to the normal check out process to ensure that
           FedTraveler profiles are disabled and Citibank travel cards are deactivated, as
           appropriate. The Travel Office will perform an annual comparison of active cardholders
           to the HRMO listing of current FTC employees.

           FTC Travel Card Training - Compliance with OMB Requirements - Management
           concurs with the recommendation. FMO will work with HRMO and Records and
           Findings Office to coordinate the collections and required retention of Travel Charge
           Card training documentation that is in compliance with National Archives and Records
           Administration General Record Schedule. FMO will establish a system for ensuring that
           cardholders receive refresher training at least every three years. FMO has contacted the
           FTC Training Officer to establish whether FTC e-Train system can be used to document
           training. Additionally, FMO has strengthened procedures to ensure that training
           documentation is filed appropriately.




           cc:    Charles Sclmeider, Executive Director
                  Chris White, Designated Agency Ethics Officer
                  Karen Leydon, Human Resources Management Office
                  Jeffrey Nakrin, Director, R ecords and Filings Office
                  Diane Reinertson, Assistant CFO for Policy, Evaluation and Control




FTC/OIG-AR 10-003
                                                Page 12
